No. 20-443
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA, PETITIONER
v.
DZHOKHAR A. TSARNAEV

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION FOR LEAVE TO FILE ONE VOLUME OF THE JOINT APPENDIX
UNDER SEAL, via e-mail and first-class mail, postage prepaid, this 7th day of July, 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 7, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to mailing
your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is acceptable to
you, please fax your brief to Charlene Goodwin, Supervisory Case Management Specialist, Office of the
Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone
number is (202) 514-2217 or 2218.

20-0443
USA
DZHOKHAR A. TSARNAEV

CLIFFORD GARDNER
LAW OFFICES OF CLIFF GARDNER
1448 SAN PABLO AVE.
BERKELEY, CA 94702
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVE., NW
SUITE 500E
WASHINGTON, DC 20001-5369
202-220-1100
GINGER.ANDERS@MTO.COM
JUDY CLARKE
CLARKE, RICE APC
1010 2ND AVE.
SUITE 1800
SAN DIEGO, CA 92101
JOHN REMINGTON GRAHAM
180 HAUT DE LA PAROISSE
ST-AGAPIT, QUÉBEC G0S 1Z0 CANADA,
418-888-5049
JACK.GRAHAM@GLOBETROTTER.NET
DANIEL HABIB
FEDERAL DEFENDERS OF NEW YORK, INC.
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
212-417-8742
DANIEL_HABIB@FD.ORG

BARBARA J. HOWARD
AMERICAN BAR ASSOCIATION
321 N. CLARK ST.
CHICAGO,, IL 60654
312-988-5000
BHOWARD@BARBARAJHOWARD.COM
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM
GAIL K. JOHNSON
JOHNSON & KLEIN PLLC
1470 WALNUT STREET
STE. 101
BOULDER , CO 80302
303-444-1885
DAVID PATTON
DEIRDRE D. VON DORNUM
FEDERAL DEFENDERS OF NEW YORK, INC.
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
KENT S. SCHEIDEGGER
CRIMINAL JUSTICE LEGAL FOUNDATION
2131 L STREET
SACRAMENTO, CA 95816
916-446-0345
KENT.SCHEIDEGGER@CJLF.ORG

DEIRDRE VON DORNUM
FEDERAL DEFENDERS OFFICE
1 PIERREPONT PLAZA
16TH FLR.
BROOKLYN , NY 11201
718-330-1210
DEIRDRE_VONDORNUM@FD.ORG

